RULE 33 COMPLIANCE
The undersigned certifies that to the best of his knowledge the foregoing
Petition does not exceed the word or page limitations of Rule 33.
CERTIFICATE OF FILING AND SERVICE
The undersigned certifies that on the date below he filed and served the
foregoing by US mail, postage prepaid, as follows:
NE Attorney General
2115 State Capitol
Lincoln, NE 68409
Delivery confirmation not
requested
(1 copy)

Clerk of the US Supreme Court
Washington, DC 20543
Delivery confirmation requested
(Original only as per Court's
Covid orders)

Dated this 26th day of February, 2021.
Respectfully Submitted,
JOHN C. NIMMER,
Petitioner,

X
Johi C. Nimmer
1429 S. Grandview Ave. #8
Papillion, NE 68046-5783
402-590-9049
Pro Se Petitioner

7

